HHS/OIG-Audit--"Review of Medicare Contractor's Pension Segmentation, Community Mutual Insurance Company, (A-07-96-01194)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Contractor's Pension Segmentation, Community Mutual
Insurance Company," (A-07-96-01194)
July 1, 1997
Complete Text of Report is available in PDF format
(1.03 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of medicare contractor's
Pension Segmentation, Community Mutual Insurance Company (Community Mutual).
Our review showed that Community Mutual understated Medicare segment pension
assets as of 1986 by $602,838. This understatement occurred because Community
Mutual used an inappropriate year for their asset fraction calculation. Additionally,
Community Mutual's update for the Medicare segment assets from Plan Year 1986
to Plan Year 1995 understated segment assets by $660,350. This understatement
primarily occurred because Community Mutual started the update with an understated
asset base. We recommended that Community Mutual increase the January 1, 1995
assets of the Medicare segment by $1,263,188.